WAIVER
Supreme Court of the United States
No. 19-734
Trina R. Patterson
(Petitioner)

v.

Select Portfolio Servicing, Inc., et al,
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
❑

Please enter my appearance as Counsel of Record for all respondents.

▪

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Select Portfolio Servicing, Inc.

I am a member of the Bar of the Supreme Court of the United States.
❑ I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature Date:

January 9, 2020

(Type or print) Name Steven M. Dailey
EX Mr.
❑ Ms.
Firm

KUTAK ROCK LLP

Address

5 Park Plaza, Suite 1500

City & State

Irvine, CA

Phone

949-417-0999

❑Mrs.

❑ Miss

Zip 92614

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Trina R. Patterson
12223 Highland Avenue, Suite 106-355
Rancho Cucamonga, CA 91739

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

